<html>
<title> - A REVIEW OF THE DELAYS AND PROBLEMS ASSOCIATED WITH TSA'S TRANSPORTATION WORKER IDENTIFICATION CREDENTIAL</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                  A REVIEW OF THE DELAYS AND PROBLEMS 
                  ASSOCIATED WITH TSA'S TRANSPORTATION 
                    WORKER IDENTIFICATION CREDENTIAL 

=======================================================================

                                (112-91)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 28, 2012

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

75-376 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey        Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
FRANK C. GUINTA, New Hampshire       RUSS CARNAHAN, Missouri
RANDY HULTGREN, Illinois             GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              JASON ALTMIRE, Pennsylvania
LARRY BUCSHON, Indiana               TIMOTHY J. WALZ, Minnesota
BILLY LONG, Missouri                 HEATH SHULER, North Carolina
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         LAURA RICHARDSON, California
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
JEFFREY M. LANDRY, Louisiana         DONNA F. EDWARDS, Maryland
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
Tennessee

                                  (ii)



                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY
                               Panel One

Kelli Ann Walther, Acting Deputy Assistant Secretary, Screening 
  Coordination Office, Office of Policy, U.S. Department of 
  Homeland Security..............................................     5
Rear Admiral Joseph Servidio, Assistant Commandant for Prevention 
  Policy, U.S. Coast Guard.......................................     5

                               Panel Two

Joseph Lawless, Director of Maritime Security, Massachusetts Port 
  Authority, on behalf of the American Association of Port 
  Authorities (AAPA).............................................    14
Lindsay McLaughlin, Legislative Director, International Longshore 
  and Warehouse Union............................................    14

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Kelli Ann Walther and Rear Admiral Joseph Servidio, joint 
  statement......................................................    24
Joseph Lawless...................................................    30
Lindsay McLaughlin...............................................    33

                       SUBMISSIONS FOR THE RECORD

United States Coast Guard, insert for the record regarding a 
  timeframe for the adoption of TWIC card reader requirements....     9
Joseph Lawless, Director of Maritime Security, Massachusetts Port 
  Authority, on behalf of the American Association of Port 
  Authorities (AAPA), letter responding to request from Hon. Rick 
  Larsen, a Representative in Congress from the State of 
  Washington, for an estimate on what it will cost the ports to 
  install TWIC card readers, July 12, 2012.......................    20

                         ADDITION TO THE RECORD

Cal Dooley, President and CEO, American Chemistry Council, letter 
  to Hon. John L. Mica, a Representative in Congress from the 
  State of Florida, and Chairman, Committee on Transportation and 
  Infrastructure, July 18, 2012..................................    40

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                  A REVIEW OF THE DELAYS AND PROBLEMS
                  ASSOCIATED WITH TSA'S TRANSPORTATION
                    WORKER IDENTIFICATION CREDENTIAL

                              ----------                              


                        THURSDAY, JUNE 28, 2012

                          House of Representatives,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:04 a.m., in Room 
2167, Rayburn House Office Building, Hon. John L. Mica 
(Chairman of the committee) presiding.
    Mr. Mica. Good morning. I would like to call the 
Transportation and Infrastructure Committee of the House to 
order. Today we are conducting a hearing relating to delays and 
problems associated with TSA and Department of Homeland 
Security's Transportation Worker Identification Credentials.
    I would like to welcome our witnesses. We have two panels 
here, I see, and we have quite a busy agenda on a number of 
fronts today, so we will try to expedite this process and 
hearing as expeditiously as possible.
    The order of business will be opening statements by Members 
and then we will turn to our witnesses. I will start by 
beginning with a brief opening statement.
    We are here today many years after we have attempted to 
implement putting into place a transportation worker 
identification card. This process has gone on since 2002, and, 
unfortunately, I can't think of too many programs in Government 
that have had more delays, more costs to the taxpayers, and 
more incidents of failing to perform than the so-called TWIC 
effort.
    I am most disappointed that we are here. Time after time, 
we have been promised in this hearing room and also in 
Government Reform that the program would put in place measures 
that would allow us to identify who is going in and out of our 
ports in a secure manner and that we would have a card, an 
identification card for those workers that had a biometric 
capability, both fingerprint and iris, and that we would have 
readers that could read those cards.
    Now, we are faced with cards having been issued--what, 2 
million cards?--and at substantial cost to the Federal 
Government. It is estimated this whole program is going to cost 
$3.2 billion over 10 years. We still do not have a completion 
of the biometric requirements that were asked for years ago, 
promised to us in a number of hearings. We do have other 
agencies that help set those standards. However, even having 
those agencies before us and their commitment to developing 
some acceptable standards has yet to result in accomplishment 
on the side of iris-recognition biometric factors.
    So here we are almost on the eve of renewal and now we are 
going to face again the cost of deploying cards that have 
become almost a joke with the transportation community. Here is 
a Federal ID that cost money that is supposed to help us be 
secure, and it is actually not acceptable; some other form of 
identification needs to be accompanying that document.
    Additionally what baffles me is there are other agencies 
who have developed identification credentials over a much 
longer period of time, and so we are somewhat reinventing the 
wheel and at great public expense and delay in implementing 
this.
    Finally, what it has done is made the whole process, again, 
I think, a disappointment that we cannot issue, again, the card 
that would keep us secure, provide adequate identification, and 
do it in a cost-efficient manner and in a timely manner.
    Many questions remain. I have not been pleased with the 
cooperation of the Department of Homeland Security, but we do 
have a witness here today. TSA continues to ignore the 
committee, and I will consult with my colleagues, if necessary, 
to subpoena witnesses from TSA to get their response, which I 
think this committee deserves.
    So I am not a happy camper this morning with the status, 
the delays, and, again, the total ineffectiveness of putting a 
very important program together.
    I am pleased that we have a representative of the Coast 
Guard. They have been cooperative, but I don't want them to be 
the fall guy for others who are making decisions at a higher 
level, or should be making decisions at a higher level, taking 
actions, and having not completed those responsibilities.
    So, with that, I will yield to Mr. Larsen.
    Mr. Larsen. Good morning, Mr. Chairman. Thank you for 
holding this hearing. I am eager to hear from this morning's 
witnesses, and I will be brief in my opening remarks.
    In the relatively short history of the Transportation 
Worker Identification Credential, or TWIC, it is no 
understatement to say that the development and implementation 
of this program has been, at best, dismal and its record of 
achievement disappointing. These problems transcend 
Presidential administrations.
    Intended by the Congress to be a key element in securing 
our Nation's maritime transportation infrastructure from 
terrorist attacks, the TWIC program since its inception has 
been beset by a litany of problems. Excessive cost, 
administrative inefficiencies, technical biometric glitches, 
and confusing or burdensome enrollment requirements routinely 
surface as common faults expressed by my constituents.
    The Government Accountability Office questions whether the 
TWIC has actually improved the security of our vessels, ports, 
and maritime infrastructure at all. Indeed, considering the 
fact that over 2 million TWICs have been issued at a cost to 
seafarers and other maritime transportation workers of more 
than $250 million, this is sad commentary.
    Fortunately, recent events reveal that both the 
administration and Congress are now giving the TWIC program the 
type of scrutiny it deserves. For example, since March, this 
will be the third TWIC oversight hearing. Additionally, this 
Tuesday, the House considers legislation to require the 
Secretary of Homeland Security to reform the TWIC enrollment 
and renewal processes and to require, in total, only one in-
person visit to a designated enrollment center.
    The Coast Guard expects to publish regulations in the 
Federal Register later this year regarding requirements for 
TWIC electronic readers. Moreover, on June 15th, the 
administration announced a new policy authorizing 3-year 
extensions of expiring TWICs at half the cost of a full 5-year 
renewal. This new extended expiration date, or EED, policy has 
generally been greeted very positively by mariners and other 
transportation workers.
    Despite these recent helpful steps, much work remains to be 
done. To that extent, I am optimistic that this morning's 
hearing will serve up additional recommendations on how the 
administration and Congress might best address TWIC's remaining 
flaws. My view is that the Congress and especially this 
committee shares responsibility with the administration to work 
collaboratively to finally deliver the type of security program 
first envisioned when Congress passed the Maritime 
Transportation Security Act of 2002.
    No one contests the underlying security imperative of a 
nationwide credential. We have invested too much simply to 
throw up our hands and walk away. We have to get it right. But 
we do not need an expensive, low-tech flash pass that provides 
little security. TWIC should be an inexpensive, high-tech 
security credential that contributes to port security.
    We need to set aside differences and work with the 
administration to finally transform the TWIC program into the 
type of comprehensive security shield we have long sought. And, 
to that end, I look forward to hearing from our witnesses 
today.
    And I yield back. Thank you.
    Mr. Mica. Do other Members seek recognition?
    Ms. Richardson?
    Ms. Richardson. Good morning. Thank you, Mr. Chairman and 
Ranking Member Larsen, who is here instead of Mr. Rahall, for 
holding this very important hearing.
    One of my top priorities since being here in Congress has 
been to ensure that our country's ability to move goods is 
second to none and that it is done in an efficient and safe 
manner. My district serves as a gateway to the country and is 
home to workers that serve in both the Port of Long Beach and 
Los Angeles, which are the largest ports in this country and 
where 40 percent of the Nation's goods travel through.
    Recently, this program--and I guess not so recent; it has 
been over a period of time, as Mr. Larsen said--but the 
concerns have been heightened into issues of intrusiveness of 
the process, of the TWIC process; the financial burden that it 
is unnecessarily placing on the workers; and then, also, what 
is being done with the information obtained by the TWIC 
readers. Is that remained exclusively by the Government or 
shared with companies, as well?
    My sister, I won't say which particular company that she 
works for, but I found it interesting that the TWIC cards 
expand not only to the dock workers who are on site but to all 
of those who are involved in a chain of transportation of 
goods.
    There is really no reason why TWIC readers have not been 
instituted at this point. I had an opportunity to travel on a 
CODEL, a Homeland Security CODEL, out of this country, and they 
had literally the keypads that were where biometrics could be 
used of fingerprints. And this was well over about 2\1/2\ years 
ago. So why in this country of great technology we have not 
managed--and that was actually an American company; I looked at 
the device to see the name of who produced it--why we still 
can't get to the point that we fulfill the promise that we made 
to the American people of this investment is disappointing.
    Finally, the TWIC card report has found--speaking now off 
of the readers themselves, but the cardstock is not adequate. 
The readers are not ready to be deployable. And now we have 
issues of renewals coming up, where people had to go and apply, 
then go in person and pick it up, spend all sorts of money for 
nothing more than a flash card, which is not appropriate for 
the security that we need in this country.
    I look forward to the testimony. And I would urge those who 
are on behalf of the appropriate agencies that it is imperative 
that the workers are involved in the process of how we do 
further implementations forward, whether that is extensions, 
whether that is deploying of devices, and certainly when we are 
talking about the use of private information.
    With that, I yield back the balance of my time. Thank you, 
Mr. Chair.
    Mr. Mica. Thank you.
    Mr. Sires.
    Mr. Sires. Thank you, Mr. Chairman, for holding this 
meeting.
    And it just befuddles me why we go through all this--why we 
have all these problems for a card. Having worked--well, I 
represent the ports in New Jersey, the Port of Newark and the 
Port of Elizabeth, and people are always constantly asking me, 
are they secure?
    But, you know, with this card, I remember working on the 
New Jersey license years ago when it was a sham, what we had in 
New Jersey, and finally coming through with a card that--it was 
an example for the rest of the country. I don't understand why 
so long, so much money it takes for us to get a TWIC card. And 
I guess that is just my comment. It just befuddles me.
    Thank you.
    Mr. Mica. Thank you.
    If no other Members seek recognition, then we will turn to 
our panel of witnesses.
    And the first panel is: Rear Admiral Joseph Servidio, and 
he is assistant commandant for prevention policy in the U.S. 
Coast Guard. Then we have Ms. Kelli Ann Walther, and she is 
acting deputy assistant secretary, Screening Coordination 
Office, Office of Policy at the Department of Homeland 
Security.
    Also, missing--and I will make a note for the record, and, 
again, I am going to consult with the Democratic leadership on 
a possible subpoena of this witness who did not appear. Mr. 
Stephen Sadler, assistant administrator of the Transportation 
Security Administration, failed to appear at today's hearing, 
June 28, 2012.
    With that, I will turn first for opening statements to the 
acting deputy assistant secretary of U.S. Department of 
Homeland Security, Ms. Walther.
    Welcome, and you are recognized.

    TESTIMONY OF KELLI ANN WALTHER, ACTING DEPUTY ASSISTANT 
  SECRETARY, SCREENING COORDINATION OFFICE, OFFICE OF POLICY, 
 U.S. DEPARTMENT OF HOMELAND SECURITY; AND REAR ADMIRAL JOSEPH 
  SERVIDIO, ASSISTANT COMMANDANT FOR PREVENTION POLICY, U.S. 
                          COAST GUARD

    Ms. Walther. Thank you, Chairman Mica and distinguished 
members of the committee. The Department of Homeland Security 
appreciates the opportunity to appear before the committee to 
highlight our work on the TWIC program. My testimony will 
address the role of TWIC as one element of DHS's layered 
approach to maritime security and our plans for the program's 
future.
    There is no one-size-fits-all solution for maritime 
security. The maritime environment is complex with many 
variables. Our approach to maritime security is also complex, 
with multiple layers in place to mitigate threats.
    As authorized by Congress, the mission of the TWIC program 
is to enable maritime vessel and facility operators to make 
informed access control decisions for workers seeking 
unescorted access to secure areas. The program provides the 
facility or vessel owner and operator with both a means of 
verifying the worker's identity and evidence that TSA has 
conducted a robust security threat assessment on the individual 
presenting a TWIC.
    TWIC is a public/private-sector relationship. In most 
cases, the Federal Government does not own or operate the 
critical infrastructure and key resources in the maritime 
domain. Therefore, we work closely with our partners to meet 
Homeland Security objectives in a manner consistent with our 
operational needs.
    DHS conducts the checks and issues the credentials, while 
facilities and vessels decide who can access their secure 
areas. With TWIC, port security officers across the country 
encounter a single recognizable, tamper-resistant credential 
rather than hundreds of different identity cards. DHS also 
partners with the private sector by participating in regular 
meetings with a TWIC Stakeholder Communication Committee, 
speaking at conferences, and visiting MTSA regulated sites to 
see the TWIC program in operation.
    TSA began the national deployment of the TWIC program in 
October 2007. Almost 5 years later, DHS has issued over 2 
million TWICs to longshoremen, truckers, merchant mariners, and 
rail and vessel crewmembers, utilizing 135 enrollment sites 
nationwide. Never before has the Federal Government attempted 
to conduct security threat assessments and issue a secure 
credential on this scale with such a geographically dispersed 
population of private-sector workers.
    From 2008 to 2011, TSA conducted a TWIC reader pilot to 
inform and support the development of a TWIC reader rule. TSA 
evaluated the technical performance of the TWIC biometric 
reader function at 17 locations across the United States. TSA 
was able to collect information on reader performance as well 
as assess the operational and business impacts under diverse 
field conditions. A final report on the results of this pilot 
was delivered to Congress in February 2012.
    The TWIC program achieves its mission by conducting uniform 
vetting on maritime workers and issuing a tamper-resistant 
biometric credential to successful applicants. The actual TWIC 
cards contain security features not available on standard ID 
badges, which makes them highly resistant to counterfeiting. 
The vetting TSA conducts includes checks for ties for terrorism 
using the terrorist watch list, an immigration status check, 
and a criminal history records check.
    On August 30th of this year, TSA will offer eligible TWIC 
holders the opportunity to replace their expiring 5-year TWICs 
with a 3-year extended-expiration-date card. TSA is offering 
this option at $60 to make it more cost-effective for eligible 
workers while the TWIC reader rule is pending. Upon expiration 
of the 3-year card, all TWIC holders will be required to enroll 
for a standard 5-year TWIC.
    The implementation of TWIC has provided significant 
improvements to security in the maritime environment. Before 
TWIC, no standard identity verification or background checks 
were conducted on individuals prior to entering secure areas of 
our Nation's port facilities and vessels. Owners and operators 
had to rely on multiple types of identity documents with wide 
variations in their security and issuance processes. Today, 
facility owners and vessel owners and operators can rely on a 
standardized credential that confirms the holder's identity and 
shows evidence that he or she successfully completed a security 
threat assessment.
    DHS and its partners have taken significant steps to add 
layers of security to protect our Nation's ports. These steps 
link together information sharing, security, and law 
enforcement from across DHS and a multitude of partnerships. 
Each layer builds upon and complements the others. TWIC is one 
of those layers.
    Thank you for this opportunity to update the committee on 
this important program. I have submitted written testimony and 
respectfully request that it be made part of the hearing 
record. I would be happy to answer any questions you may have.
    Mr. Mica. I will withhold questions until we have heard 
from our other witness.
    We will now recognize Rear Admiral Joseph Servidio and 
welcome him.
    You are recognized.
    Admiral Servidio. Good morning, Chairman Mica, Ranking 
Member Larsen, distinguished members of this committee, I am 
Rear Admiral Joe Servidio, Assistant Commandant for Prevention 
Policy for the United States Coast Guard. I am honored to have 
this opportunity to appear before you today to speak about the 
Coast Guard's role in enforcing compliance of the 
Transportation Worker Identification Credential within the 
maritime transportation system and to update you on our ongoing 
efforts related to the program.
    The TWIC program provides a standardized baseline for the 
determination of an individual's suitability to enter the 
secure area of a Maritime Transportation Safety Act-regulated 
vessel or facility. It is only the first half of a two-part 
process. In addition to possessing a valid TWIC, an individual 
must be specifically granted access to the secure area by each 
individual vessel or facility security officer.
    To clarify, the possession of a valid TWIC alone is not 
sufficient to gain the holder of that credential access to the 
secure areas on vessels or facilities. The TWIC provides a 
means by which a vessel or facility security officer can 
determine that an individual has been vetted to an established 
and accepted standard using a single uniform, tamper-resistant 
credential that security personnel have been trained to 
examine. It helps inform the security officer's decision to 
grant unescorted access to an individual.
    To clarify agency roles regarding the TWIC program, TSA is 
responsible--the Transportation Security Administration--for 
TWIC enrollment, security threat assessment, adjudication, card 
production, technology, TWIC issuance, conduct of the TWIC 
appeals and waiver processes, and management of Government 
support systems. The Coast Guard is responsible for 
establishing and enforcing access control requirements at MTSA-
regulated vessels and facilities, which include the 
requirements for TWICs at approximately 2,700 regulated 
facilities, 12,000 regulated vessels, and 50 regulated Outer 
Continental Shelf facilities.
    The SAFE Port Act mandates that the Coast Guard conduct two 
security inspections annually at MTSA-regulated facilities, 
with one inspection being unannounced. During each of these 
exams, TWICs are checked by Coast Guard personnel either 
visually or by using biometric hand-held readers. Vessels and 
facilities within all 42 Captain of the Port zones are in 
compliance with TWIC requirements and have been since April 15, 
2009.
    To maximize the security benefits of the TWIC and 
supplemental enforcement efforts, the Coast Guard has deployed 
275 biometric hand-held readers to our field units, and we 
verified over 230,000 TWICs during our inspections.
    The Coast Guard is developing regulations to require the 
use of readers to verify TWICs at certain MTSA-regulated 
facilities and vessels. Card readers are viewed as a key step 
in maximizing security, and we are moving forward as smartly 
and quickly as possible with the TWIC reader requirements 
notice of proposed rulemaking.
    The proposed rulemaking established risk-based requirements 
for the enhancement of access control through the use of TWIC 
readers without unnecessarily impeding commerce or port 
operations. The notice of proposed rulemaking is of the highest 
priority to the Coast Guard and DHS and has the personal 
attention of the Secretary and is in final clearance.
    The Coast Guard continues to work diligently to execute our 
TWIC program responsibility: establishing and enforcing access 
control requirements at MTSA-regulated vessels and facilities. 
We continue to work closely with our partners--our partners in 
DHS and State and local agencies and law enforcement and in the 
maritime industry--to enhance the TWIC program in a manner that 
improves port security while facilitating commerce to the 
maximum extent possible.
    Thank you for the opportunity to speak to you today and for 
your continued support of the Coast Guard. I look forward to 
answering your questions.
    Mr. Mica. Well, thank you.
    And we will start right in with some questions.
    First of all, let me go to some of your testimony. You just 
testified that you are still finalizing the standards for the 
readers?
    Admiral Servidio. Yes, Chairman. We are working as quickly 
as we can----
    Mr. Mica. What is the holdup with it? I mean, first of all, 
you testified you issued 275 readers that are out there now; is 
that right?
    Admiral Servidio. Yes, Chairman.
    Mr. Mica. So we have issued those, and we don't have 
standards for them fully adopted. Is that also correct?
    Admiral Servidio. We do have the capability of using them 
and checking the biometrics on them----
    Mr. Mica. We have readers out there, yet we have not 
finished adopting the standards that are acceptable; is that 
correct? Has to be.
    Admiral Servidio. Yes, sir.
    Mr. Mica. OK. And what timeframe, for the record, would you 
estimate that we would have those standards adopted?
    Admiral Servidio. Well, sir, I can't testify with regards 
to the standards for the reader. I can talk about the reader--
--
    Mr. Mica. You just said in your testimony that you would 
have standards for the reader shortly or something?
    Admiral Servidio. We are going through the notice of 
proposed rulemaking process, sir.
    Mr. Mica. OK. When--what is that? I mean, let's do the 
rulemaking or whatever. How long will it take?
    Admiral Servidio. We are in final clearance, sir. We are 
informed by the results----
    Mr. Mica. You have been in final clearance for years. If 
this was a plane, we would have run out of fuel and crashed and 
burned.
    Admiral Servidio. I share your concerns, sir. The----
    Mr. Mica. OK. For the record, what I am trying to get is 
some timeframe. Six months, three months, two months, a year? 
How long before we actually have a standard and complete the 
rulemaking and all the other requirements to have a standard 
for these readers?
    Admiral Servidio. Chairman, the regulatory process requires 
that we solicit comments, and it is----
    Mr. Mica. Yes. I know the process, but I am just saying, 
give for the record a period of time, because what I am going 
to do is haul you in here again at the end of that period and 
ask you. So give me some time definition. Six months?
    Admiral Servidio. The Secretary has said that it should be 
completed by the end of the calendar year. I believe our 
Commandant has said that it would be done by the summer, sir. 
We are working as quickly as we can----
    [Insert for the record from the United States Coast Guard 
follows:]

        The Commandant of the U.S. Coast Guard, Admiral Robert 
        Papp, testified on March 6, 2012, before the House 
        Appropriations Subcommittee on Homeland Security that
        ``. . . we're working through the final rule (TWIC 
        Reader Rule). And that process should take about a year 
        to get that completed.''

    Mr. Mica. So the Secretary said by the end of the year, and 
the Commandant said by the end of the summer?
    Admiral Servidio. We are working as quickly as possible, 
and it has the Secretary's personal attention, sir.
    Mr. Mica. Is that Napolitano?
    Admiral Servidio. Yes, sir.
    Mr. Mica. Well, my role is trying to nail this thing down, 
see when we are going to have readers.
    Now, the card itself--we have had a series of hearings, and 
the card was supposed to have both thumb and iris capability. 
And in one of our last hearings over a year ago, we had in the 
National Institute of Standards and Technology, and they had 
told me that it would be that fall that they would have the 
standards for iris. That was over a year ago. Then we asked 
again in the fall, and they said it would be the beginning of 
the year--that would be this year, 2012--that we would have the 
iris standards.
    Ms. Walther, where are we with that?
    Ms. Walther. The Department continues to follow the work of 
both GSA and NIST on iris as a biometric.
    Mr. Mica. But that doesn't answer my question. They 
promised us that, again, a year ago the fall, then the end of 
the year, then the beginning of the year it would be early this 
year.
    This is June. Where are we with the iris? Do you know? Have 
they given you, the National Institute of Standards and 
Technology, have you agreed upon a standard for iris?
    Ms. Walther. Sir, I can't answer on behalf of NIST as to 
where they are----
    Mr. Mica. No, but you are to fulfill having a card. Now, 
aren't we going to start issuing more cards? Were they a 5-year 
card, Admiral?
    Admiral Servidio. Yes, sir.
    Mr. Mica. OK, they were a 5-year card. So some of those 
cards are starting to expire--how soon are they expiring? 
October? A couple of months.
    So we will start issuing more cards again, won't we, 
Admiral? What are we going to do? Give them an extension?
    Admiral Servidio. I think Kelli Ann is probably better to--
--
    Mr. Mica. OK, Assistant Secretary, are we going to start 
reissuing cards in October?
    Ms. Walther. Yes, sir----
    Mr. Mica. We have to do something. We have expiring cards, 
right?
    Ms. Walther. Yes, sir. The card----
    Mr. Mica. And we don't have an iris standard; is that 
right?
    Ms. Walther. That is correct----
    Mr. Mica. And we don't have reader standards set----
    Ms. Walther [continuing]. We do utilize fingerprints.
    Mr. Mica [continuing]. Is that right? Yes?
    Ms. Walther. Yes.
    Mr. Mica. Can you see how frustrating this is? And it goes 
on and on and on. In many instances, the private sector has 
done this. In some other agencies they have actually completed 
and have IDs that work.
    Now, so at our ports we have issued a card--and there are 
275 readers out there. Is that the readers total? Do we know 
how many ports they are at, Admiral?
    Admiral Servidio. Sir, as of May of 2012, our field 
inspectors have said there is approximately 75 to 100 different 
port facilities that have implemented readers and have procured 
them on their own. But the Coast Guard----
    Mr. Mica. So how many of the total ports would that be?
    Admiral Servidio. There is--well, there is 2,700----
    Mr. Mica. Ports?
    Admiral Servidio [continuing]. Facilities, sir.
    Mr. Mica. And we have gotten how many?
    Admiral Servidio. I was told between 75 and 100----
    Mr. Mica. Oh, we are really moving down the lane in 
expedited fashion.
    It would seem that this is a spotty deployment and a 
totally inadequate adoption of standards. And now we are going 
to start the second phase of issuing cards for which we don't 
have a reader, we don't have the standards--do we have a 
deployment schedule?
    When would we hope to have, Assistant Secretary, these 
fully deployed and operating, the TWIC cards and readers? Do 
you have a plan for that?
    Admiral Servidio. I can take that question, sir.
    Mr. Mica. OK, we will go back to the Coast Guard.
    Admiral Servidio. Sir, I share your concern with the delays 
in this. We need to get this rulemaking right. We needed to 
take the lessons learned from the pilot program, and we also 
need to include the comments that were provided in the advance 
notice of proposed rulemaking, along with the economic concerns 
for this risk-based system that we are looking to incorporate 
in the final rule are there, sir. We need to make sure we are 
doing it right.
    Mr. Mica. Well, again, we are going on 9 years. We are in 
our second phase of issuing cards. You can get something out of 
a Cracker Jack box and probably take it to the port and get in, 
too. We had GAO test what is out there. They found it is very 
easy to subvert what has been issued, since we don't have a 
reader, we don't have a full biometric capability in the card. 
When is the last time you contacted the folks over at National 
Institute of Standards and Technology to see when they would be 
ready?
    Ms. Walther. I can get back to you with that answer.
    Mr. Mica. You don't know?
    Ms. Walther. I don't have that with me, no.
    Mr. Mica. Who in your department would deal with actually 
contacting and dealing with them? Is there a name?
    Ms. Walther. TSA has been----
    Mr. Mica. TSA?
    Ms. Walther [continuing]. Dealing with them.
    Mr. Mica. So TSA is responsible for that? And they won't 
show up, they will not show up at a hearing here. They refuse 
to come and answer us. They are the ones responsible. You are 
testifying under oath that they are responsible for that 
particular element of getting a TWIC card and its capability, 
biometric capability, and they will not show up. Is that what 
you are telling me?
    Ms. Walther. TSA is responsible----
    Mr. Mica. Did the Secretary tell them not to come?
    Ms. Walther. Sir, the test program----
    Mr. Mica. Do you have the ability to ask them to come?
    Ms. Walther. I believe the Department has reached out to 
the committee staff on this matter. And I hear your concerns, 
and I can take that back, as well.
    Mr. Mica. You know, I am fed up with this, really, Mr. 
Larsen.
    This hearing is in recess.
    [Recess.]
    Mr. Mica. The Transportation and Infrastructure Committee 
will come back to order.
    We chose to recess both because of my frustration with the 
Department of Homeland Security and TSA and their inability to 
respond to the committee. I had an opportunity to consult 
briefly with the ranking member, and we are going to take the 
matter under advisement and talk to Mr. Rahall, Mr. LoBiondo, 
and others, see how we proceed with both TSA and Homeland 
Security.
    In order to be fair and give both sides of the aisle the 
opportunity to question these witnesses, I will yield now to 
the ranking member, Mr. Larsen. Thank you.
    Mr. Larsen. Thank you, Mr. Chairman. I, too, share your 
frustration with the lack of TSA's presence and, some might 
say, ability to be forthright with this committee in order to 
have us do an appropriate job of oversight on the TWIC program. 
So we will be talking with Mr. Rahall, be sure he is aware of 
the situation, and try to--we will work expeditiously with the 
majority side to address that concern.
    For Ms. Walther, in my opening statement, I said that we do 
not need an expensive, low-tech flash pass that provides little 
security. We need an inexpensive, high-tech security credential 
that contributes to port security.
    I am going to ask you the question, what you think we are 
closer to with regards to the TWIC. And the reason I am going 
to ask that is because I will ask that of the second panel, as 
well, to see if we get an answer that is close or the same or 
very different.
    So what would you say the TWIC more equates to: an 
expensive, low-tech flash pass that provides little security or 
an inexpensive, high-tech security credential that contributes 
to port security?
    Ms. Walther. Sir, the TWIC provides a tamper-resistant 
credential that is issued to all individuals that need access 
to secure areas of MTSA-related facilities and vessels. 
Previously, each port facility owner-operator issued unique 
identity cards. Now the TWIC makes an easily recognizable 
credential that is recognizable across the country, east coast 
or west coast. It also ensures evidence of a security threat 
assessment on a vetted population that did not exist before.
    I believe in the AAPA's submitted written testimony; they 
also acknowledge the difference of before TWIC and after TWIC, 
where before TWIC there were unmanned gates and not access 
control at every access point, and today TWIC provides a value 
that you know when you see a TWIC that you are seeing evidence 
of a security threat assessment. And it can be used across the 
country while facilities and owners and operators maintain the 
ability to make those actual access decisions.
    Mr. Larsen. As much as I support this new policy that you 
have to extend the expiration date, if it is possible to extend 
that expiration date of a TWIC and only require an applicant to 
visit an enrollment center once, why does it take two visits to 
an enrollment center for the issuance of a new TWIC or a 
renewal of an existing TWIC card?
    Ms. Walther. The extended-expiration-date card is a one-
time temporary extension. Knowing that the readers will not be 
in place at the time TWIC cards begin to expire this coming 
October, we wanted to provide that additional flexibility to 
the workers to reduce the cost and have one trip to the 
enrollment center.
    For new applicants, it is important to have those two 
trips. As GAO noted, that does follow best practices. At the 
enrollment, we capture the information. That information is 
used to conduct a full security threat assessment, have the 
adjudication. If the applicant passes those checks, they are 
issued and a card is activated.
    At that second trip to the enrollment center is where we do 
a biometric verification of the card to the card holder to 
ensure we are issuing that card to the rightful owner prior to 
them going out and back to work.
    Mr. Larsen. So there are more than 2 million transportation 
workers enrolled in the TWIC program. Do you have an estimate 
of how many TWIC enrollees, well, TSA expects to have 
participate in the extended-expiration-date program?
    Ms. Walther. We estimate 1.3 million workers will be 
eligible to apply for the extended-expiration-date card.
    Mr. Larsen. Do you have any data to indicate whether or not 
those who are eligible both will apply and be approved? Is this 
going to be a fairly perfunctory activity?
    Ms. Walther. Applying for the EED is not a requirement, so 
I can't answer whether they will apply for a 3-year card or a 
5-year card. That is still an option, and that would be up to 
that individual.
    Mr. Larsen. And the process of approval, from your 
perspective, is that going to be fairly routine?
    Ms. Walther. It will be standardized across all EED 
applicants, yes, sir.
    Mr. Larsen. Admiral, I understand that--well, Section 809 
of the Coast Guard Authorization Act exempts mariners who do 
not need access to a secure area of a vessel from the 
requirements that they obtain a TWIC, and the Coast Guard 
Policy Letter 11-15 implements that section, but still requires 
those seeking their first mariner credential to visit a TWIC 
enrollment center essentially to complete the TWIC enrollment 
process and pay the enrollment fee.
    So I understand the TWIC exemption has been estimated by 
the Coast Guard to apply to potentially 60,000 of 220,000 
licensed mariners in the U.S. Is that correct?
    Admiral Servidio. I believe so, Ranking Member.
    Mr. Larsen. So, given the policy letter and the impact on 
folks who fulfill the exemption requirements and yet go through 
the entire TWIC process, are there steps being taken by the 
Coast Guard to reduce fees for mariners who do not need TWICs 
but yet are basically going through this same process?
    Admiral Servidio. There is going to be a rulemaking 
project, sir, to reduce those fees.
    What we did as a result of 809 is, via policy, implemented 
what we could with respect to renewals. About 230 people thus 
far have been issued merchant mariners credentials without 
having a valid TWIC. But we believe we have to go through a 
rulemaking process in order to reexamine those fees.
    As part of our merchant mariners credential program, what 
we have done is we have utilized TSA's enrollment sites to 
collect the biometrics and, again, to do the threat assessment 
part of it. Our actual examination of a merchant mariner to 
look at their character and their habits of life is a separate 
part. But we have looked to make it as most effective as 
possible--a single enrollment, single collection of 
biometrics--for doing that.
    Mr. Larsen. Yeah.
    Mr. Chairman, I think that is going to be fine for me. I 
will have other questions for the record for the witnesses.
    Mr. Mica. We will have other questions. We will leave the 
record open for--I think we will leave it open for 30 days if 
that is OK.
    Mr. Larsen. Sure.
    Mr. Mica. Because I would like to have additional questions 
submitted to these witnesses.
    As you can tell, I am not very pleased with who they sent 
today from Homeland Security and the lack of preparedness to 
provide information to this committee and the ignoring of the 
committee by TSA, which I think we deserve a response from, 
questions, and full participation, and we will deal with that.
    I am going to excuse these witnesses. I just am very 
frustrated at this point. And we will consult with our 
colleagues and see how we proceed with the Department of 
Homeland Security.
    TSA, you are excused.
    Let's bring the second panel of witnesses up. We have Mr. 
Joseph Lawless, director of maritime security, Massachusetts 
Port Authority. He is testifying on behalf of the American 
Association of Port Authorities. We have Mr. Lindsay 
McLaughlin, legislative director of the International Longshore 
and Warehouse Union.
    I am pleased to welcome both of the witnesses, and you will 
be recognized for 5 minutes. If you would like to provide 
additional testimony to the Transportation and Infrastructure 
Committee, you are welcome to do so, just by submission.
    So we will proceed with these two witnesses, and I will 
recognize first Mr. Joseph Lawless from the Massachusetts Port 
Authority, testifying for the American Association of Port 
Authorities.
    Welcome, sir, and you are recognized.

  TESTIMONY OF JOSEPH LAWLESS, DIRECTOR OF MARITIME SECURITY, 
    MASSACHUSETTS PORT AUTHORITY, ON BEHALF OF THE AMERICAN 
ASSOCIATION OF PORT AUTHORITIES (AAPA); AND LINDSAY MCLAUGHLIN, 
  LEGISLATIVE DIRECTOR, INTERNATIONAL LONGSHORE AND WAREHOUSE 
                             UNION

    Mr. Lawless. Thank you, Mr. Chairman, distinguished members 
of the committee. Good morning. My name is Joseph Lawless. I am 
the director of maritime security at the Massachusetts Port 
Authority.
    I am testifying today on behalf of the American Association 
of Port Authorities, where I serve as chairman of the AAPA 
Security Committee. My testimony today is on behalf of AAPA's 
81 U.S. port members. All AAPA U.S. maritime port facilities 
are impacted by the TWIC requirements.
    Five years ago, TSA rolled out the requirement that 
individuals who need unescorted access to Maritime 
Transportation Security Act-regulated port facilities must 
obtain a TWIC card. Those original TWICs are expiring, and 
today TSA has a new contractor to handle the issuance of TWICs. 
With the new contractor involved, we urge this committee to 
keep a close eye on the TWIC process. TSA should work closely 
with the stakeholders in the maritime environment to educate 
the workforce of these renewal deadlines and requirements.
    We are pleased to see that the House Homeland Security 
Committee approved H.R. 4251, the SMART Port Security Act, 
which includes necessary and immediate reforms to the TWIC 
program. The Act provides that not more than one in-person 
visit to the enrollment center will be necessary to obtain a 
TWIC. And expiration of TWIC cards shall not occur until full 
implementation of a final rule for electronic readers, or on 
June 30, 2014.
    We are also pleased to see that the TSA has taken action to 
address TWICs expiring before the end of 2014. U.S. citizens 
who have a TWIC that expires before the end of 2014 will have 
the option of paying $60 to acquire a 3-year extended-
expiration card. While we support these efforts to make the 
process more efficient, our member ports are concerned that 
there will not be a new threat assessment conducted for the 
extended-expiration cards, and we feel this lack of an 
additional criminal background check could dilute the security 
of our facilities.
    TWIC mandates have changed the way port facilities are run. 
In addition to the cost of the card, port facilities must now 
ensure that all gate and entrance points have a way to check 
TWICs. Massport staffs all of its access points into our 
facilities with security personnel to verify that the entrants 
have a TWIC.
    Though the TWIC card includes a biometric security feature, 
due to the delay in the issuance of the final rule, it has not 
been put into use at most facilities. Therefore, the security 
features of the card are not being utilized and the TWIC is 
currently being used as a flash pass. Without these readers, 
there is no way to automatically check a hot list of revoked or 
suspended TWICs.
    The next phase of TWIC is the reader rule, which has 
already been delayed for a length of time. The delay in the 
reader rule has had a large impact on the Port Security Grants 
Program. Congress appropriated $400 million, recognizing the 
need for Federal funds to help pay for the reader mandate. In 
order for grantees to begin purchasing readers, TSA published 
technical specifications for TWIC readers in order for the 
grantees to begin to buy these readers. While this is much 
appreciated, these specifications will likely change in 
response to the final rule. Therefore, those ports are going to 
be using their grants in installing systems that may require 
costly changes once the final rule is issued. Until the final 
reader rule is issued, it is not known if all facilities will 
be required to have readers.
    Finally, AAPA supports congressional proposals to extend 
the 5-year deadline for when the TWIC grants must be spent in 
order to allow these funds to be based on the final rule. AAPA 
is also concerned that the delay in the reader rule comes at a 
time when port security grant funding is decreasing and the 
burden of the reader rule will fall on port facilities. While 
the programs saw a high of $400 million, its fiscal year 2012 
level is $97.5 million. What funding will be available when the 
rule goes into effect?
    In conclusion, AAPA and its members have worked closely 
with the TSA and the Coast Guard on implementation of the TWIC 
requirements. For facilities, the next phase, the reader rule, 
will be the most expensive. We encourage the Coast Guard to 
continue their proposed rulemaking process so ports can take 
advantage of the funds provided for reader implementation.
    Thank you.
    Mr. Mica. I will withhold questions until we have heard 
from Mr. Lindsay McLaughlin.
    Mr. McLaughlin. Thank you, Chairman Mica----
    Mr. Mica. Welcome.
    Mr. McLaughlin [continuing]. And Ranking Member Larsen. My 
name is Lindsay McLaughlin. I am here on behalf of our 
president, Bob McEllrath, and the 65,000 members of our union. 
We represent longshore warehouse workers, maritime workers on 
the west coast--Alaska, Hawaii, Washington State, Oregon, 
California.
    It is interesting you asked in your invitation to us to 
respond to the question as to whether TWIC significantly 
enhances the security of U.S. ports or whether the costs the 
TWIC program imposes on U.S. port workers could be better spent 
on other port security initiatives. And I think at our--we had 
a meeting of longshoremen from up and down the coast a couple 
weeks ago, and there was a resolution that came out of Seattle, 
Washington, local, and it said we wanted to repeal the TWIC. 
And so let me just try to make the case as to why TWIC is 
insignificant in terms of security and poses other problems.
    As you know, the MTSA requires that all people that have 
access to secure areas of a port to go through the threat 
assessment and get a TWIC. However, we believe at its core--and 
you talk to individual longshoremen that just move one box from 
point A to point B, and they don't know what is in the box. 
They have no clue what is in the box. They move the box. They 
say, I mean, what are they worried about? What opportunity do I 
have to create acts of terrorism? Why should I get a criminal 
background check?
    And in a port area, I mean, if somebody fails the criminal 
background check--I mean, most ports, I mean, everything is a 
secure area. So that person, if for whatever reason they fail 
the threat assessment, they won't have a job. But, I mean, 
these containers are locked, they are sealed. And, from our 
perspective, I mean, the only argument that you could make for 
a criminal background check for an individual is an individual 
who knows what is in the can. But most don't. So they don't 
know whether it is tennis shoes or some kind of material that 
could be used for terrorism.
    Also, we are not really convinced that the TWIC readers 
will properly function in the maritime environment and increase 
security. We say that because the GAO report on the TWIC pilot 
program in February 2012 concluded that, quote, ``readers 
capable of passing all environmental tests would represent a 
serious business challenge to manufacture in terms of cost per 
unit.'' Further, a high number of cards malfunctioned 
electronically. There were problems with the cardstock itself, 
I mean, with the fading, peeling, staining that made it 
difficult to be read by the readers.
    And participants in the pilot program, many of them, said 
that they would get rid of the guards or the clerks that were 
checking the credentials as people come in, which to us is--you 
know, these are the people that know you by name, you know, 
that could tell if you don't belong. I mean, that just doesn't 
seem to be a good idea, to get rid of these people that are 
watching you as you come into your workplace.
    I mean, you went over the cost, the $3.2 billion over 10 
years. I think that is very expensive.
    One of the things that I have worked on the most in terms 
of port security is to try to get Members of Congress and 
others to recognize the civil-liberties aspect of port 
security. Our way of thinking is that, if a person has served 
time in prison, that does not necessarily make that person a 
terrorist security risk. They have committed a crime. Denying 
work opportunities for workers doesn't make sense in terms of 
concluding, because there is a past, that they must be a 
terrorist security risk. But it is bad public policy to put 
people out of work.
    Perhaps more disturbing, thousands of workers who do not 
have a felony conviction at all are denied work opportunities 
as a result of the TWIC program until they prove their lack of 
conviction. Unfortunately, the ILW has numerous members who 
face just these circumstances because of TWIC. And, Congressman 
Larsen, I included two examples of people from Seattle that did 
nothing wrong. One had a pending case that was never prosecuted 
because there was nothing there, and yet when he applied for 
his TWIC, it took him 6 months to get it, and he exhausted his 
savings. Another example from a longshoreman from Seattle. He 
was born on a military base, as I was, and he didn't have 
records of his birth certificate. So he had to work through the 
military to get that, and it took him 6 months to get that. And 
his house--you know, he was close to losing his house. So he 
exhausted his savings. So these are unfair--this is a very 
unfair aspect of the TWIC program.
    And since implementation of the TWIC program, close to 
50,000 workers have filed for appeals after initial 
determination that they were ineligible to receive a TWIC. An 
appeal, as you know, is different from a waiver in that an 
individual who receives this determination was probably never 
convicted of a felony, but they must prove that he or she was 
not convicted by obtaining court and police records and sending 
them to TSA for their review. That is because the database that 
they use, the FBI database, many times it doesn't show--it 
shows that a person was arrested for a particular offense. And 
if TSA doesn't follow up, it doesn't follow up--I mean, this is 
the final resolution. The person was charged with something, 
they may never have been convicted, they may have been 
convicted of a lesser offense, and it is not followed up on.
    Congressman Bobby Scott from Virginia had legislation last 
Congress that would mandate that the FBI look for the final 
resolution of the charge to see whether they were convicted 
before sending it to TSA so that individuals won't get these 
letters saying that they are, you know, denied a TWIC. And I 
think that is fair.
    So this is a huge problem because a lot of--I mean, I got 
calls from longshoremen and they said, well, I was convicted of 
X in year, and I served this amount of in prison; it is all 
over for me, isn't it? And, you know, they have a union that 
they can go to to say, no, most of these waivers and appeals, 
they are--I mean, you should be OK, but you have to prove that 
you have been rehabilitated. But others that don't have a union 
to go to, I mean, one-quarter of these letters that went out 
saying you may not be eligible, they didn't even respond. And 
that is a problem, because I think people are out of their jobs 
when they could have saved their job had they known the 
information.
    There is a problem here in that we found from the National 
Employment Law Project that there were serious racial 
disparities in processing of TWIC applications. On average, 
white applicants were approved for their TWIC within 6 months; 
African Americans, 7 months; and Latinos, 8 months. We find 
that disturbing. The National Employment Law Project speculated 
that these delays may have been associated with the lack of 
targeted outreach and education of these communities in the 
absence of translation and interpreter services. We do think 
the availability of waivers--am I out of time, or am I OK?
    Mr. Mica. You can go on a little bit.
    Mr. McLaughlin. OK.
    OK--waivers are essential.
    There are alternatives. We think Congress is throwing money 
away on a wasteful program, and we think the wasteful program 
is the TWIC.
    We also--you know, there is some bitterness about how the 
port security grants have been--some of the port security 
grants for surveillance equipment that is actually monitoring 
workers and not looking for terrorists. That is a problem, that 
workers have been disciplined because of the taxpayer-funded 
cameras that are going to these ports. And I have another 
example here.
    We think that there must be alternative programs and 
flexibility built into the TWIC program that would allow a more 
localized approach. We think that if our union and our employer 
could work out a system with Federal guidelines for access 
control, I think we would prefer to do that. TWIC is just too 
cumbersome, there are too many people involved, and workers 
fall through the cracks, and we want to make sure that our 
workers do not.
    So, finally, again, I appreciate the opportunity to 
testify, and I will try to answer any questions that you might 
have.
    Mr. Mica. Thank you.
    Thank you, particularly, Mr. McLaughlin. I share some of 
the commentary and testimony perspective that you have provided 
the committee and view this as a wasteful program, not that 
effective.
    I am a little bit disappointed that I didn't hear more of 
that from the association of ports. Are you pleased, Mr. 
Lawless? Are the ports pleased with the progress of this 
program?
    Mr. Lawless. Mr. Chairman, no, we are not pleased. We have 
been waiting for this final rule to come out on the TWIC 
implementation for the reader rule. We have port security funds 
that have been sitting idle while we await that rule to come 
out. So, no, we are not pleased.
    Mr. Mica. And how about on the deployment side? They 
testified that a small fraction of the ports are covered. We 
have readers which have not actually been approved as far as 
standards. Is that acceptable?
    Mr. Lawless. No, that is not acceptable.
    Mr. Mica. OK. And now we are about to re-up issuance of 
these cards. This has gone on for 9 years. We have actually had 
cards out there for almost 5 years. Do you see a problem there?
    Mr. Lawless. I do see a problem. It is being used as a 
flash pass, a low-tech security item.
    Mr. Mica. They probably could have done it at a fraction of 
the cost and far less hassle, wouldn't you both agree, if you 
are just going to do a flash pass?
    Mr. Lawless. Yes, if you are going to do a flash pass, it 
would be much less.
    Mr. Mica. What is disappointing, one of my investigative 
team showed me that DOD already developed a card that has 
biometric, it has iris, thumb, it even has palm--very secure. I 
will submit a little information about it.
    Joint Personnel Identification Version 2, it is JPIv2. This 
is already in use, approved, meets all the criteria that we are 
looking for. And we are in reinventing the wheel. Well, we 
aren't reinventing the wheel because we haven't done what we 
need to do in developing anything that meets this standard. It 
has already been done.
    And we can't even get TSA to come in here. You saw the 
fiasco in the panel before us.
    Mr. McLaughlin. Yes.
    Mr. Mica. Doesn't that just destroy your faith in this 
process? And it is appalling that TSA would thumb their nose at 
the committee, that they would send a witness who is so 
unprepared, and then to have the nerve to sit there and say, 
``Well, TSA has the answer to that,'' but they won't show them 
up. And TSA is under that agency, Homeland Security. You know, 
I just slammed this down in frustration.
    And it is just appalling. And it goes on and on, spending 
hundreds of millions of taxpayer dollars, which, Mr. 
McLaughlin, you described very well, and we don't have, again, 
a secure program in place. That is such a disappointment.
    Mr. Larsen?
    Mr. Larsen. Mr. Lawless, I read in your statement that your 
organization is pleased with the recent announcement concerning 
TSA's extended enrollment date policy. But can you explain why 
ports are concerned that there will be no additional criminal 
background checks completed for the EED? How serious of a 
security threat do you think this is, that they need a new and 
additional criminal background check?
    Mr. Lawless. Mr. Larsen, I think in the period of 8 years 
there is a possibility that a person who has a TWIC could be 
involved in criminal activity that would therefore disqualify 
them. And if they are not checking that background and 
extending the card for 3 years, to me and to my fellow port 
members, that is a concern.
    Mr. Larsen. With regards to the estimates the AAPA has for 
how much it will cost the ports to install TWIC card readers, 
has there been a fully developed estimate for the cost?
    Mr. Lawless. Not a fully developed estimate, no, sir.
    Mr. Larsen. An estimated estimate?
    Mr. Lawless. I don't have that information with me, sir, 
but I can provide it to you, if you would like, to the 
committee.
    Mr. Larsen. Could you do that for the record, please? It 
would be very helpful.
    Mr. Lawless. Yes.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Larsen. To that point--and I am very, very sympathetic 
to the point that you have about port security grants, having 
them, not being able to use them. But I think it is reasonable 
to ask Congress to know what the expense might be before 
looking at the Port Security Grant Program. So the sooner, the 
better on that.
    In addition, the port security grants that ports have 
received for readers, is there any flexibility in those 
dollars, or are these largely grants that are supposed to be 
used for readers only?
    Mr. Lawless. The grant program, you specify how you are 
going to use those funds when you make an application. So you 
would specify you are planning to implement a TWIC reader.
    Mr. Larsen. Right.
    Mr. Lawless. And if the reader specs aren't complete, 
then----
    Mr. Larsen. Right.
    Mr. Lawless [continuing]. It doesn't make sense to spend 
that money.
    Mr. Larsen. Right. OK.
    Once the Coast Guard completes it rulemaking, how confident 
are you that the TWIC readers that ports purchase and install 
will be reliable and durable? We have heard testimony from Mr. 
McLaughlin about concerns about the actual durability not just 
of the reader but of the card itself.
    Mr. Lawless. I have faith in the Coast Guard that they are 
going to look at the durability issues. And that is part of the 
rulemaking when they issue those final specifications.
    Mr. Larsen. Well, we will certainly be exploring that 
faith. Nothing against the Coast Guard, but durability of the 
readers and the cards has been an issue in the pilot, and that 
is going to have to be addressed.
    Mr. McLaughlin. Congressman Larsen?
    Mr. Larsen. Yeah, Mr. McLaughlin.
    Mr. McLaughlin. Right now, I mean, if a card is not working 
with the reader because it is faded or peeling, they blame the 
worker and they say, you have to get a replacement. So, right 
now, if a person's card is damaged somehow, you know, faded or 
it is just not working well, they say, you have to pay for the 
replacement; you did something.
    So, I mean, my point is that they don't even have the 
durability of the card right, because we can't--I mean, that is 
not fair.
    Mr. Larsen. And then the cost sits on you.
    Mr. McLaughlin. Pardon me?
    Mr. Larsen. And then the cost sits on you, the worker.
    Mr. McLaughlin. Yeah. Right. Exactly.
    Mr. Larsen. In your statement, Mr. McLaughlin, you 
expressed concern with the TWIC appeals process, about its 
timeliness and efficiency. Do your concerns focus more on 
appeals that were filed over the first couple of years after 
TSA started enrolling workers, or are these concerns about the 
appeals process as it exists today? Have there been any 
improvements in the appeals process?
    Mr. McLaughlin. Yeah, we passed a law that said you have 30 
days to process an application and 30 days for the appeal. So 
my concern is that, you know, when we have this stampede to, 
again, get these cards renewed, that the same problems will 
happen again. So that is my concern.
    And my second concern is, I don't want people getting 
letters saying they might not be eligible for TWIC when they 
haven't done anything wrong, when the information, you know, is 
just spotty that they may have been arrested for a certain, you 
know, activity but they were never convicted. I don't want--I 
mean, those people did nothing wrong, and yet they are waiting 
the 6 months, 7 months, 8 months to get their card, while they 
exhaust their savings. That, I think, needs to be fixed.
    Mr. Larsen. Yeah. What specific actions, then, would be 
taken to fix those specific problems?
    Mr. McLaughlin. Well, without legislation, we would ask the 
TSA to do due diligence in working with the FBI to find the 
final result of a particular arrest. Because if you are 
arrested for, you know, a drug crime, of possession with intent 
to distribute, then you are sent a letter saying you may not be 
eligible for a TWIC. But I think it is incumbent on them to do 
their homework to say, you know, OK, the final disposition was 
that this person was not convicted. It may have been a 
possession charge; it may have been dismissed.
    That work is not being done, so thousands of workers are 
getting these letters saying that you may not be eligible for a 
TWIC. I mean, like I said, those people without a union to 
educate them, or organization, I mean, thousands of people 
didn't even, you know, didn't even do their appeal or waiver. 
And I just wonder why there wasn't more outreach to those 
people, because I worry that they lost their livelihoods.
    Mr. Larsen. Yeah. Well, I would be hopeful that somehow TSA 
was listening right now, but I am not convinced that is the 
case.
    With regards to your testimony on regional or local 
strategies, are you suggesting that the entire concept of a 
TWIC is flawed and should be scrapped? Or are you suggesting 
that the TWIC program can be changed, augmented, tailored for 
regional or local approaches?
    Mr. McLaughlin. Well, the resolution that was passed by the 
longshoremen said we want it repealed.
    Mr. Larsen. Right.
    Mr. McLaughlin. In the testimony, I offered a solution, 
that if a major employer like Pacific Maritime Association and 
the ILWU could work out with some Federal guidelines a way to 
have access control and to ensure that only people that need to 
be there are there, with the due process protections that we 
worked so hard for in Congress, then that is an option, some 
flexibility that would allow us to do that, and take some 
pressure off the TSA, with the millions of workers that they 
have to deal with today.
    Mr. Larsen. OK.
    Mr. Chairman, I asked these specific questions to kind of 
give us some further direction to look into. And it is a lot of 
food for thought, and I appreciate the opportunity to question 
the witnesses. I yield back.
    Mr. Mica. Well, thank you. And, Mr. Larsen, again, we have 
got to convene a meeting with the leadership of the committee 
and take under advisement some action, I think, to bring TSA or 
the Department of Homeland Security, at least someone who can 
answer our questions, in. And I think it is incumbent on us to 
make this work if we are going to put such a program in place.
    We have heard the frustration of both labor and also our 
ports, the association that runs the ports throughout--and 
represents the ports throughout the Nation. What we have in 
place is not acceptable. The delays are just beyond 
comprehension. The inability to put this program together is 
startling. And then the cost to the taxpayers in financing this 
entire fiasco is just totally unacceptable--a $3.2 billion 
program which is rife with problems and does not secure our 
ports.
    So I am extremely frustrated by all this. I want to thank 
both of you for coming in, particularly Mr. Lawless from 
Massachusetts, and being with us today. We are going to leave 
the record open for 30 days. We may have additional questions 
we will submit to you.
    But we appreciate your cooperation, your suggestions and 
recommendations as we move forward. If we don't have TWIC or 
TWIC doesn't work, we need to make certain we have something 
positive in place that does work and secures our ports and our 
country.
    So, with that, there being no further business at this time 
before the committee, I will thank our witnesses, excuse them, 
and I will call this meeting and hearing of the Transportation 
and Infrastructure Committee to a conclusion. This adjourns the 
meeting. Thank you.
    [Whereupon, at 11:35 a.m., the committee was adjourned.]

</pre></body></html>
